HHS/OIG, Audit -"Audit of Medicaid Payments for Skilled Professional Medical Personnel Reimbursed at Enhanced
Rates October 1, 2002 Through September 30, 2003 Office of Vermont Health Access,"(A-01-04-00008)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid Payments for Skilled Professional Medical Personnel Reimbursed at Enhanced Rates October 1, 2002 Through
September 30, 2003 Office of Vermont Health Access," (A-01-04-00008)
March 29, 2005
Complete
Text of Report is available in PDF format (208 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We found that the State of Vermont improperly claimed Medicaid costs related to skilled professional medical personnel
totaling $262,219 for Federal fiscal year 2003.  The State did not have adequate procedures in place to ensure that
only eligible individuals and allowable expenses were claimed for enhanced Federal funding in accordance with Federal regulations
or that all costs claimed were appropriate charges to the Medicaid program. We recommended that the State refund $262,219
for the Federal share of unallowable Medicaid costs and implement procedures to ensure that future claims are eligible
for the enhanced Federal funding rate.  State officials agreed with our recommendations.